     FOLLOW-UP AUDIT ON THE
  IMPLEMENTATION OF THE NORTH
AMERICAN FREE TRADE AGREEMENT’S
CROSS-BORDER TRUCKING PROVISIONS
    Federal Motor Carrier Safety Administration

           Report Number: MH-2007-062
            Date Issued: August 6, 2007
           U.S. Department of
                                                              Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Follow-Up Audit on the                                            Date:    August 6, 2007
           Implementation of the North American Free Trade
           Agreement’s Cross-Border Trucking Provisions
           Federal Motor Carrier Safety Administration
           Report Number MH-2007-062

  From:    Rebecca Anne Batts                                                     Reply to
                                                                                  Attn. of:   JA-40
           Acting Assistant Inspector General
            for Surface and Maritime Programs
    To:    Federal Motor Carrier Safety Administrator

           This final report presents the results of our annual audit of the North American
           Free Trade Agreement’s (NAFTA) Cross-Border Trucking Provisions. The
           Department of Transportation (DOT) and Related Agencies Appropriations Act
           for Fiscal Year (FY) 2002 (the FY 2002 Act) 1 provided funds to the Federal
           Motor Carrier Safety Administration (FMCSA) to implement NAFTA. However,
           the FY 2002 Act and subsequent appropriation legislation through FY 2006
           prohibited FMCSA from using Federal funds to review or process Mexico-
           domiciled motor carrier applications to operate beyond the United States
           commercial zones 2 until certain preconditions were met. Further, the FY 2002 Act
           established a precondition for allowing Mexican motor carriers to haul hazardous
           materials beyond the commercial zones.

           Section 350 of the FY 2002 Act also included a requirement for an annual review
           by the Office of Inspector General (OIG) of eight specific safety-related criteria,
           which would cover Mexico-domiciled motor carrier operations beyond the
           commercial zones. The OIG issued reports in June 2002, May 2003, and January
           2005 that addressed the eight criteria and other border safety operation issues
           identified.

           1
               Pub. L. No. 107-87 (2001).
           2
               Section 350 refers to Mexico-domiciled motor carriers operating beyond United States municipalities and
               commercial zones on the United States-Mexico border (the southern border) as Mexican motor carriers.
               Commercial zones at the southern border generally extend from 3 to 25 miles north of U.S. border
               municipalities (or 75 miles within the State of Arizona). Our audit also refers to the operation of
               Mexico-domiciled motor carriers outside of these zones as “long-haul” operations.


                                                                i
 Our latest report, issued in January 2005,3 concluded that FMCSA had sufficient
 staff, facilities, equipment, and procedures in place to substantially meet the eight
 Section 350 criteria. However, the report made nine recommendations to
 FMCSA; four of these addressed actions relevant to the eight criteria that the OIG
 is required to review. The remaining five addressed two preconditions set forth
 elsewhere in Section 350 and three areas not specifically addressed in Section 350.

 Our audit objective was to assess the actions FMCSA took in response to our
 January 2005 report recommendations. Our report highlights FMCSA’s actions in
 response to the prior report and areas where additional improvement is needed.
 Exhibit A details our audit scope and methodology. Exhibit B provides
 information on the status of the eight criteria and details FMCSA’s actions in
 response to our January 2005 report recommendations and other issues not
 discussed in the findings section of this report. Exhibit F defines the abbreviations
 used in this report.

 We conducted this performance audit from March 2006 through July 2007 in
 accordance with Generally Accepted Government Auditing Standards as
 prescribed by the Comptroller General of the United States. We performed such
 tests as we considered necessary to detect fraud, waste, and abuse.

 RESULTS IN BRIEF
 Data from our current review and our earlier reports dating back to 1998 point to
 continual improvement in the border safety program. For example, based on our
 analysis of FMCSA data, as figures 1 and 2 show, both the number of FMCSA
 inspectors hired and trained at the border, as required by the FY 2002 Act, and the
 percentage of Mexican trucks taken out of service after inspection improved in
 comparison to our earlier reporting.
 Figure 1. Number of FMCSA Border Inspectors                 Figure 2. Percentage of Mexican Trucks
                                                                        Taken Out of Service
300                                                 100

250
                                                        80
200
                                                        60
150
                                 254                    40
100

50              13                                      20         44%
                                                                                     21%
 0                                                      0
            FY 1998            June 2006                          FY 1997          FY 2006

 3
      OIG Report Number MH-2005-032, “Follow-Up Audit of the Implementation of the North American
      Free Trade Agreement’s (NAFTA) Cross-Border Trucking Provisions,” January 3, 2005. OIG reports
      and testimonies can be found on our website: www.oig.dot.gov.


                                                   ii
Our current work also found that FMCSA took the actions it agreed to in response
to our nine January 2005 report recommendations. FMCSA continues to work
with the states and others to resolve prior report issues that its actions did not fully
resolve. FMCSA’s completed actions include (1) ensuring that five states, which
had not yet done so, adopted a rule that requires enforcement action against
Mexican motor carriers or others operating without proper authority from FMCSA
and (2) prompting states with high-volume motor carrier commercial vehicle
crossings to address the maintenance of weigh-in-motion scales in commercial
vehicle safety plans.

Despite the progress FMCSA has made, additional improvements are needed in
two of the eight Section 350 (c)(1) criteria.

 • Improving the quality of the data used to monitor Mexican commercial
   driver traffic convictions in the United States: Our work determined that
   the system used to monitor Mexican commercial driver license convictions, the
   52nd State System, still contains data inconsistencies. Enforcement officials
   need the data to identify drivers not permitted to operate on U.S. highways.

 • Ensuring adequate capacity to inspect Mexican buses: Although FMCSA,
   in response to our 2005 audit, implemented the Southern Border Commercial
   Bus Inspection Plan that identified inspection issues and strategies for
   addressing those issues for specific bus border crossings, other important
   issues have surfaced. For example, at one high-volume crossing, physical
   space and capacity limitations prevented inspections during high-volume
   holiday periods. This means that Mexican buses granted long-haul operating
   authority in the United States may not be inspected during busy periods.

Additionally, FMCSA and the Department should continue to address two areas
noted in our January 2005 report that are outside the Section 350 criteria.

 • Fully implementing FMCSA’s policy on ensuring Mexican carrier
   compliance with Federal motor vehicle manufacturing safety standards:
   One mechanism Federal inspectors could use to ensure that Mexican vehicles
   have complied with manufacturing safety standards is to check a vehicle’s
   identification number to identify the year of manufacture. However, FMCSA
   has not issued additional guidance that would make it mandatory for inspectors
   to check the vehicle number and record it in inspection records.
 • Continue focusing on Mexican carrier drug and alcohol testing issues:
   Mexico has no certified testing laboratories and any samples collected in
   Mexico must be sent to certified laboratories in the United States. Although
   FMCSA has taken the actions noted in our prior report, it is not clear whether



                                          iii
      the controls in place ensure that valid specimens are being collected in Mexico
      before being sent to a certified laboratory.

SUMMARY OF RECOMMENDATIONS
We recommend that FMCSA improve the comprehensiveness and consistency of
Mexican commercial driver traffic conviction data by developing state corrective
action plans to address state-specific issues and by instituting a quarterly review
process to routinely identify and notify states of data inconsistencies. FMCSA
should also address bus inspection issues by working on a site-specific basis with
U.S. Customs and Border Protection to modify the Southern Border Commercial
Bus Inspection Plan. Our full recommendations, including those addressing other
border safety areas, are cited on page 12.

These improvements are needed more urgently than ever because Mexican motor
carriers may be granted long haul authority in the near future.               On
February 23, 2007, the Secretary of Transportation announced that a select number
of Mexican motor carriers, not including Mexican commercial drivers hauling
hazardous materials or Mexican buses, would be granted long-haul authority as
part of a 1-year long project. 4 This demonstration project was detailed in
May 1 and June 8, 2007, Federal Register notices. 5

We plan to review FMCSA compliance with elements of Section 350 in an
upcoming audit, in accordance with the United States Troop Readiness, Veterans’
Care, Katrina Recovery, and Iraq Accountability Appropriations Act of 2007. 6
We will also assess whether the mechanisms established by FMCSA are sufficient
to apply Federal motor carrier safety laws and regulations to Mexican motor
carriers operating in the United States. The issues we highlighted above relate to
some of the same mechanisms we plan to review. FMCSA should address any
issue specific to the demonstration project before the project begins.

SUMMARY OF AGENCY COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE
We provided FMCSA with a draft of this report on June 29, 2007. On
July 18, 2007, FMCSA provided us with its formal comments (see page 39). In its
comments, FMCSA stated that it considers many of the findings and
recommendations to be constructive and already has actions underway to address

4
    This authority was not granted in the past because there was no agreement regarding on-site safety
    inspections of Mexican motor carriers. On February 22, 2007, the Secretary announced that Mexico
    would permit on-site safety inspections.
5
    72 FR 23883 and 72 FR 31877.
6
    Pub. L. No. 110-28 (2007).


                                                  iv
them. FMCSA concurred with all of our recommendations and proposed
corrective actions, which we have accepted. Specifically, FMCSA concurred with
our recommendation to improve the 52nd State System’s comprehensiveness and
consistency by ensuring that all southern border states complete their plans for
corrective actions, instituting a monthly data report to identify problems, and
periodically notifying states of any inconsistencies it finds. FMCSA also
concurred with the recommendation to modify the state commercial bus inspection
plan to ensure adequate coverage at the Lincoln-Juarez crossing at Laredo, Texas,
during periods of peak bus traffic. In addition, it plans to contract a review of the
effectiveness of its commercial bus inspection plan.

FMCSA agreed to require its inspectors to look at the vehicle identification
number for all long–haul, Mexico-domiciled carriers to check on vehicle
compliance with manufacturing standards and to record this information. FMCSA
also states that it will revise its system software so that it will automatically
remind its inspectors to enter the vehicle identification number. Furthermore,
FMCSA agreed to establish an action plan, in coordination with the Department’s
Office of Drug and Alcohol Policy and Compliance, to conduct audits of various
Mexican drug collection facilities and laboratory and to work with Mexico to meet
U.S. requirements. Our complete analysis of FMCSA comments is on pages 13
through 14 of this report.




                                         v
                                   TABLE OF CONTENTS
FINDINGS .............................................................................................. 1
FMCSA Has Continually Improved the Border Safety Program............. 1
FMCSA Adequately Addressed Two of the Four Section 350 (c)
Issues Reported in 2005 ........................................................................ 2
FMCSA Still Needs To Improve Two Areas Under Section 350 (c) ....... 3
Issues Not Specified in Section 350 of the FY 2002 Act Also
Need FMCSA’s Continued Attention ...................................................... 7
OIG Reviews of the Project Allowing Mexican Carriers To
Operate in the United States Are Planned ............................................. 9

RECOMMENDATIONS........................................................................ 12
AGENCY COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE....................................................................... 13
EXHIBIT A. OBJECTIVE, SCOPE, AND METHODOLOGY .............. 16
EXHIBIT B. STATUS OF SECTION 350 CRITERIA SUBJECT
TO OIG REVIEW AND PRIOR REPORT RECOMMENDATIONS...... 20
EXHIBIT C. SECTION 350 REQUIREMENTS ................................... 27
EXHIBIT D. PRIOR AUDIT COVERAGE ........................................... 35
EXHIBIT E. MAJOR CONTRIBUTORS TO THIS REPORT .............. 37
EXHIBIT F. LIST OF ABBREVIATIONS ............................................ 38
APPENDIX. MANAGEMENT COMMENTS........................................ 39
                                                                                                       1


FINDINGS

FMCSA Has Continually Improved the Border Safety Program

Data from our current reviews and earlier reports point to continued improvement
in FMCSA’s border safety program since we began reporting in 1998. FMCSA
has hired and trained the inspectors required by the FY 2002 Act, and the number
of Mexican driver and vehicle inspections in the United States has increased over
time. Further, the percentage of Mexican trucks taken out of service after
inspection has improved dramatically.

In 1998, we reported that FMCSA had only 13 Federal inspectors at the southern
border and that 44 percent of Mexican trucks inspected in FY 1997 were removed
from service because of safety violations. Now, FMCSA has 254 enforcement
personnel at the border; these include 128 Federal inspectors. Also, the percentage
of Mexican trucks placed out of service dropped to under 21 percent in FY 2005
and FY 2006, a figure comparable to that of U.S. trucks at 22 percent.

In FY 2006, a total of 211,106 Mexican driver and vehicle inspections were
performed in the United States, as compared with 2,554,280 inspections for U.S.
drivers and vehicles. Table 1 includes the commercial vehicle and driver out-of-
service rates for Mexican motor carriers inspected for FY 2004 through 2006.
These are the rates at which a vehicle or driver safety violation precludes further
operation of a commercial vehicle by its driver—until either a specified period
elapses or a required condition is met.

Table 1. FY 2004–FY 2006 Out-of-Service Rates of United States,
          Mexico, and Central America Motor Carriers
   Out-of-Service Rates                      Vehicle                            Driver
                                    The percentage of vehicles          The percentage of drivers
                                        inspected and placed           inspected and placed out of
                                   out of service due to safety or       service due to a license
                                        regulation violation.                   violation.
                                   2004         2005        2006       2004        2005      2006
  United States                   22.6%        22.4%        22.3%      6.8%        6.9%      7.3%
  Mexico                          23.1%        20.4%        20.9%      1.9%        1.1%      1.2%
  Central America*                39.5%        28.3%        42.7%      10.6%       4.8%     29.3%
  Source: OIG analysis of data from FMCSA’s Motor Carrier Management Information System.
  *Our analysis noted 491 U.S. inspections in FY 2006 pertaining to Central American motor carriers.
   According to FMCSA, Central American carriers must comply with FMCSA safety requirements
   in the United States and New Entrant Safety Program rules specific to non-North American
   commercial motor carriers operating in the United States.




Findings
                                                                                                     2


FMCSA Adequately Addressed Two of the Four Section 350 (c) Issues
Reported in 2005
Our current work also assessed FMCSA’s actions in response to our last report to
the Department in January 2005. In that report, we made four recommendations
for improvement, which addressed actions relevant to the eight criteria that the
OIG is required to review. Of the four issues, FMCSA has adequately addressed
two. These issues relate to effectively enforcing actions against Mexican motor
carriers and ensuring operable weigh-in-motion scales at the 10 highest volume
crossings.

FMCSA and the states have made significant progress in resolving problems
associated with ensuring that all states can take effective enforcement action
against Mexican motor carriers. One of the FY 2002 Act criteria 7 requires that
measures be in place for ensuring “effective enforcement” of Mexican motor
carriers. In our 2005 audit, we reported that five states had yet to adopt FMCSA’s
August 2002 interim final rule 8 on enforcing operating authority; this would
require states to place Mexican motor carrier vehicles out of service for operating
authority violations. Our audit concluded that FMCSA’s actions addressed our
prior recommendation to ensure that all states and the District of Columbia
adopted the rule. The five states without operating authority have now adopted the
rule.

As we reported in 2005, some states that had adopted the operating enforcement
rule noted problems implementing it. However, when we followed up with the
14 states we had contacted during our prior audit, we found improvement.
According to state officials, one positive factor in implementing the rule was an
August 2005 change to the Commercial Vehicle Safety Alliance (CVSA) 9 North
American Standard Out-of-Service Criteria used by Federal and state officials.
The changed criteria instructed officials that operating authority violations are a
basis for placing a vehicle out of service. Additionally, both FMCSA and CVSA
provided states with training to implement the rule.

However, based on contacts with officials in three states outside the southern
border, we remain concerned about procedures for obtaining information on the
status of carriers’ operating authority. For example, officials in two states we
contacted noted difficulties with determining operating authority because the
police cars did not have Internet access for checking the status of carriers.
Additionally, these officials noted that they did not know about FMCSA’s toll-free
telephone number that could be used to check the status of carriers. In another
7
    Section 350 (c)(1)(H).
8
    The final rule was issued on August 28, 2006 (71 FR 50862).
9
    CVSA is an association of state, provincial, and Federal Government agencies in the United States,
    Canada, and Mexico responsible for the enforcement and administration of motor carrier safety laws.


Findings
                                                                                 3


state, an official we contacted was aware of the toll-free number but said that few
of the police cars in the state had cellular telephones, so most police could not
access the number. In our view, these examples illustrate how important it is for
FMCSA to ensure the data that motor carrier enforcement officials require to
identify carriers operating without proper authority are current, complete, and
accessible. We plan to review this issue further during our congressionally
mandated reviews surrounding the announced demonstration project.

FMCSA took the action needed to ensure that weighing scales are fully
operational. As we reported in January 2005, weigh-in-motion scales were in
place at the 10 highest volume United States-Mexico commercial vehicle traffic
border crossings in compliance with Section 350 (a) requirements. However, at
the time of our crossing visits, the scales were not working at four Texas crossing
facilities. Accordingly, we recommended that FMCSA identify actions and
milestones needed to make all scales fully operational to conduct meaningful
motor carrier inspections. In response to our recommendations, FMCSA required
each of the 3 southern border states with the 10 high-volume crossings (Arizona,
California, and Texas) to include a state weigh-in-motion scale maintenance
program in their annual commercial vehicle safety plans. We verified that the
program was included in the state plans and further observed the scale at the
World Trade Bridge Border Crossing in Laredo, Texas, one of the required
crossings, and determined that it was operational.

FMCSA Still Needs To Improve Two Areas Under Section 350 (c)

Despite the progress FMCSA has made, additional improvements are needed in
two of the eight section 350 (c) criteria that the OIG is required to review. The
first is the need to improve the quality of data used to monitor Mexican
commercial driver traffic convictions in the United States. The second is to ensure
adequate capacity to inspect Mexican buses.

FMCSA has databases in place to monitor motor carriers and drivers, but
action is needed to address data inconsistencies and reporting problems. One
FY 2002 Act criteria 10 calls for an accessible database containing “sufficiently
comprehensive data” for monitoring all Mexican motor carriers and their drivers
that apply for authority to operate beyond the municipal and commercial zones on
the United States-Mexico border. FMCSA has established three additional data
systems to meet the criteria. The first system established, the Mexican Monitoring
sub-system, is part of FMCSA’s Motor Carrier Management Information System
(MCMIS). FMCSA intends to use the MCMIS Mexican Monitoring sub-system
to identify Mexican carriers granted long-haul authority in the United States that
require compliance reviews for specific violations, generate letters on corrective

10
     Section 350(c)(1)(G).


Findings
                                                                                                       4


actions, and create a history of violations and corrective dates. The second
system, the 52nd State System, contains records of traffic violations Mexican
commercial drivers commit in the United States. The third system, Mexico’s
Licencia Federal Information System (LIFIS), contains Mexican records showing
Mexican motor carrier commercial drivers with valid, disqualified, or expired
licenses.

Our current work re-examined the data inconsistencies noted in our 2005 report
with the 52nd State System and the actions FMCSA took in response. FMCSA
reports that the system is operational and that 49 states and the District of
Columbia can now electronically record convictions; 11 however, we found that
data inconsistencies and reporting problems previously identified at southern
border states with the 52nd State System still require continued action and
monitoring. For instance, the number of Texas and New Mexico reported
Mexican commercial driver license convictions in the 52nd State System showed a
dramatic decline in the beginning of 2006 when compared to prior months, and
there are notable differences between the total number of Arizona, California, and
New Mexico reported convictions and Texas reported convictions (see table 2).

       Table 2. 52nd State System Mexican Commercial Driver
     Convictions Since System Inception and for Beginning of 2006
          Southern            52nd State System Mexican            52nd State System Mexican
         Border State          Driver Convictions Since               Driver Convictions
                                  System Inception                 January 2006 to May 2006
                                 March 2002 through                        (5 months)
                                   December 2005
                                     (46 months)
       Arizona                                20                                  27
       California                             28                                  6
       New Mexico                            291                                  0
       Texas                                4,677                                 2
       Source: OIG analysis of data from TML Information Services (52nd State System Contractor)


When we brought these anomalies to FMCSA’s attention in June 2006, it
investigated the situation and found that New Mexico had incorrectly coded its
data and failed to record any convictions in the database after July 2005. Texas
also had stopped providing conviction information to the database and had
accumulated a backlog of some 40,000 Mexican commercial driver-related
convictions to review. We do not know how long it took the backlog in Texas to

11
     The remaining state, Oregon, manually submits its data and has committed to completing the necessary
     steps to go to electronic submissions by September 2008.


Findings
                                                                                                          5


develop. Further, FMCSA disclosed that in order to identify violations for
inclusion into the 52nd State System, Arizona officials had to manually sort
Mexican driver convictions to identify specific violations.            Additionally,
California officials were not being provided with the details of the driver violation
in certain instances.

To its credit, FMCSA took swift action during our current review to work with all
four southern border states to develop corrective action plans addressing these
issues. For example, after developing an action plan with Texas, FMCSA reported
that almost half of the Texas backlog was entered into the 52nd State System
database and that most of the remainder was identified as truck safety-related
violations that are not required to be entered into the system. 12

Strong follow-up action by FMCSA will be necessary to ensure that the states
implement their corrective action plans. Alternatively, FMCSA should implement
interim solutions if the plans cannot be completed in a timely fashion. Moreover,
if FMCSA develops a process that performs a quarterly inspection of the database,
notifies states of data inconsistencies, and ensures that states take immediate steps
to correct inconsistencies, future problems could be avoided. The process must
also ensure that this monitoring extends beyond the southern border states in order
to identify problems that could develop if Mexican carriers operate more
extensively outside the border states during the demonstration project.

FMCSA also reports that Mexico’s LIFIS is now comprehensive and contains all
Licencia Federal records—269,000 valid licenses, 140,000 expired licenses, and
9,000 disqualified or restricted licenses. In our opinion, this is an improvement
from FY 2001, when LIFIS contained only 20 percent of Mexico’s Licencia
Federal license holders. FMCSA data from April 2006 showed that U.S. Federal
and state officials have used LIFIS data to check the status of Mexican
commercial driver licenses, performing over 19,000 LIFIS queries. They found
that:

     • 82 percent of the queries resulted in the report of a valid Mexican commercial
       driver license.
     • 2 percent of the queries resulted in a report of either an expired license or a
       restriction (by the Mexican Government) limiting drivers to operate in Mexico.



12
     The 52nd State System database includes convictions for serious and disqualifying offenses, such as
     driving under the influence of alcohol or drugs, and serious traffic offenses, such as multiple, excess
     speeding violations or reckless driving. Not included in the database are violations relating to truck
     safety issues or certain motor carrier regulations, such as violations relating to operating a vehicle
     without operating authority or drivers failing to provide shipping documents.


Findings
                                                                                                      6


     • 16 percent of the queries resulted in a “driver not found” report, which,
       according to FMCSA, could have resulted from enforcement official input
       errors at the time the query was made.

While FMCSA asserted that the data are now comprehensive, our ability to test the
comprehensiveness of LIFIS information was limited because LIFIS is under the
control of the Government of Mexico. We conducted audit work for our
June 2002 report 13 that validated the accuracy of information in LIFIS by tracing
information in the system back to source documents. However, during the current
audit, we could not determine whether the large percentage of queries to LIFIS
that resulted in a response of “driver not found” were due to data entry problems
by U.S. users of the system, attempts by Mexican drivers to operate with invalid
licenses, incompleteness of the Mexican database, or other unknown reasons.

FMCSA took positive action to improve bus inspection coverage, but
additional issues should be addressed. The FY 2002 Act criteria 14 called for the
OIG to verify whether FMCSA has adequate capacity at crossings to conduct a
sufficient number of meaningful vehicle safety inspections. These criteria apply to
buses as well as trucks. The FY 2002 Act does not distinguish commercial buses
from commercial trucks, although buses operate differently from commercial
trucks at the border. Buses are permitted to enter the United States at separate bus
crossings and at times when commercial trucks are restricted. While our January
2005 report did not identify issues specific to truck or bus inspections conducted at
commercial crossings, we found that the number of staff at some designated bus
crossings was insufficient to meet the Act’s criteria for verifying the bus driver’s
commercial license and inspecting vehicles.

Our January 2005 report recommended that FMCSA revise polices, procedures,
staffing, and facility plans to make Mexican bus coverage consistent with FMCSA
policy on vehicle and driver inspections for commercial vehicles that are granted
long-haul authority. 15 In response to our report, FMCSA worked with the U.S.
Customs and Border Protection to identify mutually acceptable procedures and
issued the Southern Border Commercial Bus Inspection Plan. The Inspection
Plans identified the ports of entry in each southern border state along with a
description of their respective bus inspection issues and the planned strategies for
addressing those issues.


13
   OIG Report Number MH-2002-94, Implementation of Commercial Vehicle Safety Requirements at the
   U.S.-Mexico Border, June 25, 2002.
14
   Section 350 (c)(1)(F).
15
   Approximately 250,000 buses crossed the southern border in FY 2005. Mexican bus inspections include
   inspections of Mexican motor coaches, buses, and school buses. In FY 2006, FMCSA reported
   19,166 bus inspections performed in the four southern border states. This was a further decrease from
   the 27,262 bus inspections reported in FY 2005 and the 29,124 reported in FY 2004.


Findings
                                                                                 7


As part of our present audit, we observed a bus crossing in Laredo, Texas, that
services an average of 3,000 bus crossings monthly (see figure 3). At this
crossing, we identified physical space and capacity limitations that prevented
FMCSA and the state motor carrier inspectors from conducting bus inspections
during high-volume holiday periods. This concern needs to be addressed to ensure
that Mexican bus carriers granted long-haul authority are not able to avoid vehicle
or license inspections during busy periods at this crossing. However, this
important issue was not identified in FMCSA’s Southern Border Commercial Bus
Inspection Plan, which covers this crossing. Additionally, when we surveyed
selected inspectors at border crossings, other bus inspection items were brought to
our attention, such as lack of a ramp on which to conduct inspections. FMCSA
should routinely confirm the effectiveness of its inspection plan, either by
periodically surveying its inspectors or pursuing other means, to identify site-
specific issues to improve bus inspections.

         Figure 3. FMCSA Bus Inspection at Laredo, Texas,
                        September 2006




                  Source: OIG

Issues Not Specified in Section 350 of the FY 2002 Act Also Need
FMCSA’s Continued Attention

There are two issues aside from the specific requirements of Section 350 that
FMCSA should continue to address. FMCSA needs to take actions to fully
implement a FMCSA policy on compliance with Federal motor vehicle
manufacturing safety standards. Further, FMCSA’s continued attention is needed
on drug and alcohol testing issues.



Findings
                                                                                 8


FMCSA needs to implement its policy on Mexican carrier compliance with
motor vehicle manufacturing safety standards. Our January 2005 report urged
FMCSA to resolve issues related to a March 2002 rule it proposed requiring
Mexican motor carriers operating commercial vehicles in the United States to
display a label from the manufacturer asserting that the vehicle met all applicable
National Highway Transportation Safety Administration vehicle manufacturing
safety standards when it was built. In August 2005, FMCSA withdrew the
proposed rulemaking after determining that it could effectively ensure Mexican
motor carriers’ compliance with these standards while operating in the United
States by enforcing established motor carrier safety regulations and policies.

When FMCSA withdrew the rulemaking, it issued an internal policy to its staff
requiring Mexico-domiciled carriers applying to operate in the United States to
certify that their vehicles were built or retrofitted in compliance with applicable
manufacturing safety standards. According to the internal policy, the certification
confirmation will occur during the pre-authority safety audit and subsequent
inspections. Additionally, under the policy, if FMSCA or state inspectors
determine through vehicle inspections or during a pre-authority safety audit that
Mexican motor carriers are operating vehicles that do not comply with the safety
standards, they could deny, suspend, or revoke a carrier’s operating authority or
certificate of registration or issue penalties for falsification of records.

Our current work did not assess FMCSA’s rationale for withdrawing the
rulemaking, but we identified a problem hindering the full implementation of the
August 2005 internal policy. The policy provided instructions to FMCSA
inspection staff on how to determine whether a vehicle complies with applicable
manufacturing standards. For example, according to the instructions, for any
vehicle that does not carry a label certifying compliance with these standards, an
inspector can check the vehicle identification number (which identifies the model
year). FMCSA has determined that most vehicles produced in Mexico beginning
in model year 1996 have met applicable manufacturing standards. However, the
policy stated that guidance will be forthcoming before the August 2005 policy can
be implemented. To date, no additional guidance has been provided.

As a result, the August 2005 policy addresses procedures for recording vehicle
identification numbers, but does not require inspectors to record this information.
Our analysis of FMCSA’s FY 2005 Mexican motor carrier inspection records
database showed that additional guidance may be needed. Data show that
inspectors are entering Mexican motor carriers’ vehicle identification numbers in
the inspection database only 37 percent of the time. For the remaining 63 percent,
the optional vehicle identification number database field included non-related or
incomplete data or no data at all.



Findings
                                                                                  9


In January 2007, FMCSA reported to us that it was making software modifications
to prompt a vehicle identification number check when inspectors record roadside
inspection data. FMCSA is also reassessing whether future guidance is necessary.
Prompt resolution of questions about whether more guidance is needed to ensure
compliance with motor vehicle manufacturing safety standards through this
method will help ensure that inspectors can identify vehicles not meeting the
requirements established for Mexico-domiciled carriers.

FMCSA’s continued attention is needed to ensure implementation of
comparable drug and alcohol testing in Mexico. Our 2005 report noted that,
unlike sites in the United States, drug and alcohol testing collection sites in
Mexico are not covered by the Department’s reviews, and Mexico has no certified
testing laboratories. Instead, Mexican carriers send the collected specimens to
certified U.S. drug-testing laboratories. In a 1998 memorandum of understanding
between the Department of Transportation and its Mexican counterpart, the
Mexican authorities agreed to follow collection procedures equivalent to those
used by the Department of Transportation. Our 2005 report recommended that
FMCSA establish milestones to ensure that Mexican motor carrier drug and
alcohol testing issues—such as adequacy of collection sites—are addressed.

Although FMCSA did not agree to provide milestones for addressing the issues
presented in our January 2005 report, it committed to meeting regularly with the
U.S. Department of Transportation’s Office of Drug and Alcohol Policy
Compliance and Mexican government officials to ensure that drug and alcohol
testing issues are being addressed. We confirmed that such meetings occurred.
Further, in December 2006, FMCSA issued pre-authority safety audit guidance to
its staff specifying the information that a Mexican motor carrier must provide to
demonstrate that it is using a certified laboratory for drug testing.

However, a significant issue with specimen collection remains. It is not clear as to
whether the controls in place ensure that valid specimens are being collected
before being sent to a certified laboratory. We found no evidence that collection
site concerns have been resolved. FMCSA should establish an action plan, in
coordination with other appropriate offices, to ensure that drug and alcohol
collection issues are adequately addressed.

OIG Reviews of the Project Allowing Mexican Carriers To Operate in
the United States Are Planned
On February 22, 2007, the Secretary of Transportation announced that the
Government of Mexico would allow U.S. officials to perform on-site reviews of
Mexican carriers applying for long-haul authority in the United States. This
announcement was shortly followed with the Department’s February 23, 2007,
announcement of a demonstration project that will grant long-haul authority to a


Findings
                                                                                          10


select number of Mexican motor carriers and require FMCSA to review every
participating truck that crosses the border. FMCSA provided project details in
May 1 and June 8, 2007, Federal Register notices.

On June 19, 2007, the OIG announced its review of the demonstration project in
response to requirements in the United States Troop Readiness, Veterans’ Care,
Katrina Recovery, and Iraq Accountability Appropriations Act of 2007. As
required, the review will assess FMCSA’s compliance with elements of Section
350 and determine whether the mechanisms established by FMCSA are sufficient
to apply Federal motor carrier safety laws and regulations to Mexican motor
carriers operating in the United States.

We have not yet reviewed all details of the demonstration project; however, our
March 2007 congressional testimony 16 cited our past and current work in this area
and noted two project issues that require our additional review—the inspection of
all project participants that cross the United States and Mexico border and the
need for clear objectives, milestones, and measures of success. We will follow up
on these observations during our planned audit work.

Inspection of all project participants could be problematic. FMCSA will need
to establish good screening mechanisms at the border crossings, in cooperation
with U.S. Customs and Border Protection, to ensure that long-haul trucks
participating in the demonstration project are identified for required licensing
checks and inspections from among the large number of commercial trucks
entering the United States daily at each commercial crossing. FMCSA’s Cross-
Border Truck Safety Project states, “…every truck that crosses the border as part
of the pilot will be checked—every truck, every time.”

This could be problematic because, to identify project participants, FMCSA will
need to simultaneously screen these vehicles among the high-volume commercial
traffic crossing the border and continue to inspect other vehicles and drivers. This
may require that FMCSA coordinate closely with U.S. Customs and Border
Protection agents, who have initial border interaction and overall control of
Mexican vehicles and drivers that enter the Customs and Border Protection facility
where FMCSA is located. Otherwise, the commitment to “check every truck,
every time” could be at risk.

Our observations at the Laredo crossing, one of the highest volume crossings in
the United States, confirmed the challenge FMCSA faces in screening project
participants. Specifically, we observed hundreds of vehicles entering the United
States at the Laredo crossing each day. FMCSA inspectors selected vehicles for

16
     OIG Testimony CC-2007-26 and CC-2007-29, “Status of Safety Requirements for Cross-Border
     Trucking With Mexico Under NAFTA,” March 8, 2007 and March 13, 2007, respectively.


Findings
                                                                              11


inspection from the line of trucks waiting to exit the border crossing. However,
once an inspector selected a vehicle and diverted it for an inspection, no FMCSA
personnel remained at the screening point to monitor carrier traffic. Either this
practice needs to be changed, or other procedures for screening need to be
developed for the project in coordination with the U.S. Customs and Border
Protection. Changing present practices or developing other screening procedures
would ensure that all project trucks are identified and diverted for inspection.

According to FMCSA, it is working with the U.S. Customs and Border Protection
to modify the U.S. Customs and Border Protection Automated Commercial
Environment system. This system receives advance electronic vehicle manifests
from Mexican motor carriers before vehicles arrive at the border. One possible
modification could include a check of Mexican motor carrier’s operating authority
and commercial driver license status. By performing pre-arrival checks of
vehicles, inspectors could identify demonstration project vehicles that require
inspection before they reach the border crossing. However, no timeline for
implementation of this modification has been established.

The demonstration project needs clear objectives, milestones, and measures
of success. The demonstration project could provide a good opportunity for
FMCSA to test preparations made in response to Section 350 of the FY 2002 Act,
evaluate the Agency’s performance, and assess any risks posed by opening the
border. However, in order to measure the success of the demonstration project,
FMCSA should establish meaningful criteria for determining whether to open the
border to a greater number of Mexican carriers at its conclusion.




Findings
                                                                               12


RECOMMENDATIONS
We recommend that the FMCSA Administrator:

   1. Improve the comprehensiveness and consistency of conviction data on
      Mexican commercial drivers in the 52nd State System by:

      a. Ensuring that the corrective action plans on data reporting problems
         provided by Arizona, California, New Mexico, and Texas are completed
         as scheduled.

      b. Developing a process to periodically (at least quarterly) identify and
         notify states of inconsistencies in 52nd State System data and ensure
         that states take immediate steps to correct the inconsistencies.

   2. Ensure that adequate space is available to conduct bus inspections by
      working on a site-specific basis with the U.S. Customs and Border
      Protection to modify the Southern Border Commercial Bus Inspection Plan
      with respect to:

      a. Providing adequate inspector coverage at the Lincoln-Juarez crossing in
         Laredo, Texas, during holidays or other periods of peak bus traffic.

      b. Periodically determining the effectiveness of the bus inspection plan by
         surveying field personnel or through other methods.

   3. Address our findings on issues that are not related to Section 350 by:

      a. Implementing a policy on the use of vehicle model year to indicate
         compliance with vehicle safety standards and record vehicle
         identification numbers as part of a safety inspection.

      b. Establishing an action plan, in coordination with other Department of
         Transportation offices, to address concerns regarding drug and alcohol
         testing of all Mexican commercial drivers.




Recommendations
                                                                                  13


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FMCSA with a draft of this report on June 29, 2007. On
July 18, 2007, FMCSA provided us with formal comments, which are contained in
their entirety in the appendix. In its comments, FMCSA stated that it considers
many of the findings and recommendations to be constructive and that it already
has actions underway to address them. Additionally, FMCSA concurred with all
the recommendations and identified a completed or planned action for each that
we consider responsive to our recommendations. FMCSA comments on the
recommendations and our response are summarized below. We plan to follow up
on FMCSA’s stated actions in future audit work.

Recommendation 1.a: In response to the recommendation to ensure that
corrective action plans on data reporting problems are completed as scheduled,
FMCSA stated that Texas and New Mexico have successfully completed their
corrective action plans. The remaining southern border states, California and
Arizona, will complete their corrective action plans by August 30, 2007.

OIG Response: We consider FMCSA’s comments to be responsive.

Recommendation 1.b: In response to the recommendation to develop a process
to identify and notify states of inconsistencies in data, FMCSA stated that it is
working to obtain monthly 52nd State System data monitoring reports and will
periodically identify and notify states of inconsistencies it finds. These monitoring
reports will be sent to all FMCSA Division Administrators detailing any
inconsistencies along with guidance on tracking the correction of inconsistencies.
This is planned to be completed by August 31, 2007.

OIG Response: We consider FMCSA’s comments to be responsive.

Recommendation 2.a: In response to the recommendation to ensure that
adequate space is available to conduct inspections, FMCSA stated that it will
modify the Texas Commercial Bus Inspection Plan, working with the Texas
Department of Public Safety and U.S. Customs and Border Protection to ensure
adequate coverage at the Lincoln-Juarez crossing at Laredo, Texas, during periods
of peak bus traffic. This is planned to be completed by December 31, 2007.

OIG Response: We consider FMCSA’s comments to be responsive.

Recommendation 2.b: In response to the recommendation to work on site-
specific basis with the U.S. Customs and Border Protection to determine the
effectiveness of the bus inspection plan, FMCSA stated that it will review the


Agency Comments and Office of Inspector General Response
                                                                                  14


effectiveness of the bus inspection plan. It also stated that it has provided funding
to the Texas Transportation Institute, Texas A&M University, to review bus
activities and operations at the southern border crossings. FMCSA anticipates
completing this action by April 1, 2008.

OIG Response: We consider FMCSA’s comments to be responsive.

Recommendation 3.a: In response to our recommendation to implement a policy
on the use of vehicle model year to indicate compliance with vehicle safety
manufacturing standards, FMCSA stated that it is revising system software so that
an automatic reminder appears during inspection and prompts inspectors to enter
the vehicle identification number for all long-haul, Mexico-domiciled motor
carriers. FMCSA is also issuing a policy requiring inspectors to complete the
vehicle identification number field for all long-haul Mexico-domiciled carriers.
This is action is scheduled to be completed by October 1, 2007.

OIG Response: We consider FMCSA’s comments to be responsive.

Recommendation 3.b: In response to our recommendation to establish an action
plan to address drug and alcohol testing of all Mexican commercial drivers,
FMCSA stated it is working closely with the Department’s Office of Drug and
Alcohol Policy and Compliance to conduct audits of various drug collection
facilities operated in Mexico.         These audits will be completed by
September 1, 2007. Additionally, the Office of Drug and Alcohol Policy and
Compliance has worked with the Government of Mexico to ensure that the
policies, procedures, and forms used in the Mexico-controlled substance and
alcohol testing program are consistent with and meet U.S. requirements. Further,
FMCSA will be working with the Office of Drug and Alcohol Policy and
Compliance to establish an action plan to periodically audit Mexico collection
sites and the laboratory to determine whether they meet U.S. requirements. This
action plan will be completed by December 31, 2007.

OIG Response: We consider FMCSA’s comments to be responsive.




Agency Comments and Office of Inspector General Response
                                                                               15




ACTIONS REQUIRED
The actions taken and planned by FMCSA are reasonable and subject to the
follow-up requirements of Department of Transportation Order 8000.1C until the
final actions are completed.

We appreciate the courtesies and cooperation of representatives from FMSCA, the
states, and the organizations visited and contacted during this audit. If you have
any questions concerning this report, please call me at (202) 493-0331 or Joe
Comé, Program Director, at (202) 366-0377.



                                        #




Agency Comments and Office of Inspector General Response
                                                                                 16


EXHIBIT A. OBJECTIVE, SCOPE, AND METHODOLOGY

OBJECTIVE
The objective of this audit was to assess the actions FMCSA took in response to
the findings and recommendations in our January 3, 2005, report, “Follow-up
Audit of the Implementation of the North American Free Trade Agreement’s
Cross-Border Trucking Provisions.” In addition, we determined whether FMCSA
has the staff, facilities, equipment, and procedures in place to comply with FY
2002 Transportation and Related Agencies Appropriations Act, Section 350 (c) (1)
(A) through (H). Exhibit C details the Section 350 criteria that the OIG is required
to review.

SCOPE AND METHODOLOGY
This performance audit was conducted from March 2006 through July 2007 in
accordance with Generally Accepted Government Auditing Standards as
prescribed by the Comptroller General of the United States. We performed such
tests as we considered necessary to detect fraud, waste, and abuse.

To prevent unnecessary duplication of prior reviews, we limited our audit testing
for the eight Section 350 criteria subject to OIG review. This was due to the in-
depth audit coverage of earlier reviews (summarized in exhibit D) and the absence
of any significant change in granting of long-haul authority to Mexican motor
carriers during the period covered by this audit. We relied on our analysis of
selected FMCSA data and documentation; interviews with FMCSA officials,
selected state officials, and other officials; and observations of operations at the
World Trade Bridge border crossing, in Laredo, Texas, to provide assurances that
the conditions previously reported remain the same. Additionally, we reviewed
FMCSA’s promised actions in response to our previous report to determine
whether those actions had resulted in changes in any conditions we previously
reported. Further details on our methodology are provided below.

Staffing Issues

Our review included analyzing border staff rosters and payroll lists to determine
the current FMCSA inspection staff stationed along the southern border. We
verified payroll lists by interviewing 10 randomly selected border inspectors
regarding their employment and inspection responsibilities and obtaining reports
of two inspections they conducted in 2006.




Exhibit A. Objective, Scope, and Methodology
                                                                                 17


Observations at Laredo, Texas, Border Crossing

During our visit to the World Trade Bridge border crossing and inspection
facilities in Laredo, Texas, we relied on the technical assistance of an independent
contractor with extensive law enforcement and vehicle inspection experience. We
observed the overall operations at the crossing and motor vehicle and driver
inspections; observed inspection-related equipment; and interviewed officials from
FMCSA, U.S. Customs and Border Protection, and the state to determine: (1) the
current roles and procedures they used to permit the entry of Mexican motor
carriers into the United States and their subsequent operations beyond the entry
point, (2) the working relationships between border staff of the different agencies
at this crossing, (3) actions taken in response to our 2005 report recommendations,
and (4) inspection procedures and certifications.

Inspection Data

We independently obtained data from FMCSA’s Motor Carrier Management
Information System (MCMIS) as of February 8, 2006, to determine the number of
inspections conducted, broken out into inspection level as described below, and
computed the vehicle and driver out-of-service (OOS) rates for the United States,
Mexico, and Central America for FYs 2004 through 2006 and compared those
rates to rates for FYs 1999 through 2003, which we reported in our 2005 audit.

   • Level I—North American Standard inspection; includes a vehicle and
     driver inspection and a physical inspection of the underside of the vehicle.
   • Level II—Walk-around vehicle and driver inspection; does not include
     underside of the vehicle.
   • Level III—Driver only.
   • Level IV—Special inspection; usually a one-time inspection of a particular
     item.
   • Level V—Vehicle only.

To calculate vehicle OOS rates, we used Levels I, II, and V. To calculate the
driver OOS rate, we used Levels I, II, and III. We performed a limited assessment
of the general and application controls for MCMIS, as the nature of the data we
used was mainly for informational reporting purposes. We selectively analyzed
data to test for completeness in certain data fields. We also reconciled motor
carrier addresses in inspection records to verify that these were addresses for
active carriers.




Exhibit A. Objective, Scope, and Methodology
                                                                                18


Review of Prior Findings and Recommendations

To review the specific actions FMCSA has taken in response to recommendations
in our 2005 audit report, we provided FMCSA with a document containing our
understanding of the promised actions and outstanding issues associated with the
2005 report. FMCSA reviewed the document and provided a written response.
We further met with FMCSA to discuss the current status of its actions and the
precondition agreements or other understandings and to obtain further
documentation. To verify whether FMCSA was providing appropriate support
and coordination related to NAFTA issues, we also interviewed officials from the
Transportation Security Administration (TSA) and the Department’s Office of
Drug and Alcohol Policy and Compliance.

To follow up on our recommendation to provide comprehensive data for
monitoring Mexican commercial drivers, we reviewed FMCSA and contractor
reports addressing the architecture, operation, and data quality of the two systems
used to monitor Mexican commercial drivers’ records—Mexico’s Licencia
Federal Information System and FMCSA’s 52nd State System. We further
analyzed data quality reports; interviewed the contractor, TML Information
Services, which was responsible for operating the 52nd State System; and
reviewed contract provisions for operation of the 52nd State System. We also
reviewed established state and FMCSA milestones for improving the reporting
from individual states into the 52nd State System.

To follow up on our recommendation to improve bus inspections at border
crossings, we assessed FMCSA’s February 2006 Southern Border Commercial
Bus Inspection Plan, which were implemented after issuance of our 2005 audit, to
determine whether they provided steps that would ensure adequate bus inspection
coverage at southern border crossings in Arizona, California, New Mexico, and
Texas. Using MCMIS inspection data, we also determined the number of bus
inspections in the four southern border states in FY 2004 through 2006. We
compared the information obtained at the Laredo border crossing to the bus
inspection plan covering Texas.

To follow up on our recommendation to ensure that all states are enforcing the
2002 operating authority rule, we contacted 14 judgmentally selected state law
enforcement officials and 3 FMCSA state program staff to ascertain whether law
enforcement personnel in those states: (1) had been able to access to resources
that provide operating authority status, (2) had enforced the operating authority
rule by putting violators out of service, and (3) had made any improvements in
their ability to enforce the operating authority rule since our 2005 audit. We also
reviewed related Commercial Vehicle Safety Alliance training course materials.
To clarify California’s use of the operating authority rule, we reviewed past and


Exhibit A. Objective, Scope, and Methodology
                                                                              19


present California statutes regarding operating authority violations, interviewed
California state enforcement officials regarding past and present operating
authority rule enforcement, and analyzed MCMIS data to determine how many
operating authority violations California reported from FY 2003 through 2005
and, of these, how many resulted in an OOS order.

To follow up on our recommendation regarding weigh-in-motion scale operation
and maintenance, we reviewed weigh-in-motion scale maintenance plans
contained in the Commercial Vehicle Safety Plans from Arizona, California, and
Texas. New Mexico does not have one of the 10 highest volume crossings that
would require a weigh-in-motion scale under the FY 2002 Act. We also inspected
the weigh-in-motion scales located at the World Trade Bridge border crossings at
Laredo, Texas.

Our prior audit noted that FMCSA had initiated a rulemaking requiring labels on
all commercial vehicles operating in the United States to show compliance with
Federal Motor Vehicle Safety Standards. To follow up on the requirement, we
reviewed FMCSA’s rulemaking, public comments, draft report to Congress, and
its subsequent rulemaking withdrawal notice. We analyzed MCMIS data to
determine whether the vehicle identification number field was being populated in
MCMIS, although it was not required on completed inspection forms.

We verified that a replacement inspection facility was operational and hosting
inspections at the Eagle Pass border crossing in Eagle Pass, Texas, by reviewing
FMCSA staffing data.




Exhibit A. Objective, Scope, and Methodology
                                                                                             20


EXHIBIT B. STATUS OF SECTION 350 CRITERIA SUBJECT TO
OIG REVIEW AND PRIOR REPORT RECOMMENDATIONS

Status of Section 350 Criteria the OIG Is Required to Review

Our January 2005 report concluded that FMCSA had sufficient staff, facilities,
equipment, and procedures in place to substantially meet the eight Section 350
(c)(1) criteria. See Exhibit C for details on the criteria and Section 350
requirements. As shown in table 3, the report made four recommendations to
FMCSA, which addressed actions relevant to the eight Section 350 criteria. Our
analysis of FMCSA’s actions on these recommendations is discussed in the
findings section of this report.

       Table 3. Section 350 (c)(1)(A) through (H) Criteria Subject
        to OIG Review and 2005 OIG Report Recommendations

 (A) Filling and providing training for inspection positions.
 (B) Training inspectors conducting on-site reviews as safety specialists.
 (C) Not transferring inspectors to fill positions.
 (D) Implementing an hours of service policy.
 (E) Having a sufficiently accurate, accessible, and integrated information infrastructure
     and adequate telecommunications links.
 (F) Having adequate capacity at southern border to conduct meaningful inspections.
       9 Bus Inspections: Recommended revising policies, procedures, staffing, and
         facility plans for bus coverage consistent with FMCSA policy for vehicle and
         driver inspections for Mexican commercial vehicles granted long-haul authority.
     9 Weigh-in-Motion Scales Maintenance: Recommended identifying actions and
         milestones needed to make all scales fully operable.
 (G) Having sufficient databases to allow safety monitoring of Mexican carriers and
     drivers.
     9 52nd State System: Recommended ensuring the establishment of a
        comprehensive system for monitoring Mexican motor carrier drivers.
 (H) Measures ensuring effective enforcement and monitoring of Mexican carrier licensing.
       9 Operating Authority Rule: Recommended ensuring that all states adopt and fully
         comply with the August 2002 rule on enforcing operating authority.


The following provides the results of our review of each Section 350 (c)(1) criteria
subject to our review and details FMCSA’s actions taken in response to our 2005
report recommendations that are not discussed in the finding section of this report.

Staffing, Training, and Transfer Restrictions of Inspectors (Criteria A, B, and
C): FMCSA reported that 93 percent, or 254 of 274 Federal enforcement

Exhibit B. Status of Section 350 Criteria Subject to OIG Review and
Prior Report Recommendations
                                                                                                          21


personnel positions authorized at the United States-Mexico border were filled as
of June 2006 and hiring efforts are ongoing. 17 This represents a slight decrease
from the 95 percent of filled positions we reported in our January 2005 report. In
our opinion, this decrease is still within an acceptable range to meet Section 350
(c)(1)(A) staffing criteria, given normal attrition and FMCSA’s continuing
recruitment efforts. In addition to the 254 FMCSA enforcement personnel
currently working at the southern border, 347 federally subsidized state inspectors
are at United States-Mexico border crossings. Table 4 shows a breakout of the
FMCSA personnel and their locations along the southern border.

                  Table 4. Location of FMCSA Personnel at the
                          United States-Mexico Border

          Staff Position        Arizona California New Mexico Texas                         Total
         Inspector                 27             10               6            85           128
         Auditor                    6             14               0            29            49
         Investigator               3             12               0             32           47
         Supervisor                6              5                1             7           19
         Support Staff              2              3               0             6           11
         Total                     44             44               7            159          254
         Source: OIG analysis of June 2006 FMCSA Border Staff Roster.


According to FMCSA officials, all enforcement personnel at the United States-
Mexico commercial border crossings, both Federal and state, have the proper
training to meet Section 350 (c)(1)(A) inspection training criteria. Additionally,
those personnel are trained as safety specialists to conduct on-site reviews of
Mexican motor carriers to meet Section 350 (c)(1)(B) safety specialist training
criteria. Because there was a limited number of new hires since our last audit, we
relied on the results of our past audit work in which we confirmed that inspectors
were attending training, analyzed training class rosters, tested answer sheets, and
reviewed personnel data. Further, consistent with the non-transfer criteria of
Section 350 (c)(1)(C), our audit work found that, with one exception, none of the
enforcement personnel hired for the United States-Mexico commercial border
crossings were experienced FMCSA personnel transferred from other parts of the
United States to fill these positions. The one exception was an in-state transfer
that we do not consider significant.

17
     Section 350 referred to the position as “inspectors,” but FMCSA categorized the positions as inspectors,
     auditors, and investigators responsible for providing a full range of safety enforcement functions. These
     enforcement actions include performing driver and vehicle safety inspections, safety audits, and
     compliance reviews and investigations. FMCSA established 274 positions as the target it needed to meet
     Section 350 criteria.

Exhibit B. Status of Section 350 Criteria Subject to OIG Review and
Prior Report Recommendations
                                                                                              22


Further, as shown in Table 5, the total number of Mexican motor carrier
commercial vehicle and driver inspections conducted in the United States in FY
2006 increased from FY 2005, and the average number of inspections per Mexican
motor carrier increased.

    Table 5. Number of U.S. Inspections of Motor Carrier
 Commercial Vehicles and Drivers by Carrier Domicile, FY 2004
                      Through FY 2006
           Carrier Domicile              Inspections        Carriers        Average
            by Fiscal Year              Conducted in       Inspected       Inspections
                                        United States                      per Carrier
                               2006          2,554,280          314,486                   8
         United States         2005          2,338,692          290,236                   8
                               2004          2,332,137          277,362                   8
                               2006            211,106            4,617                  46
            Mexico             2005            193,540            4,597                  42
                               2004            164,342            5,007                  33
                               2006                491               54                   9
       Central America         2005                376               38                  10
                               2004                161               34                   5
     Source: OIG analysis of FMCSA’s Motor Carrier Management Information System data.


Our prior reports noted that, although the overall staffing at United States-Mexico
commercial border crossings is satisfactory, FMCSA needs to periodically re-
evaluate its overall resource requirements for the United States-Mexico border to
meet actual conditions. This evaluation should include staffing levels, the
experience levels of inspection staff, and the distribution of the staff at crossings.
We plan to look at this during our upcoming review of the demonstration project.
Hours-of-Service Policy (Criteria D): FMCSA meets the hours-of-service
policy criteria of Section 350 (c)(1)(D). FMCSA has issued policy guidance
requiring safety auditors to verify hours-of-service compliance for Mexican motor
carriers seeking authority to operate outside municipal and commercial zones.
Additionally, our observations of border inspections found that FMCSA
inspections were conducted in accordance with CVSA inspection criteria, which
include reviewing drivers’ hours-of-service records.
Information and Telecommunications (Criteria E): FMCSA provides an
integrated information infrastructure and telecommunications links to meet the
criteria. As we found during our 2005 audit and our observations at the two sites
in Laredo, Texas, FMCSA’s integrated information infrastructure and
telecommunications links are in place and sufficiently accessible to inspectors to
satisfy the related criteria of Section 350 (c)(1)(E). For example, we observed that
the sites have computer internet access, telephone service, and use of linked
wireless hand-held electronic devices, such as Personal Digital Assistants.
Exhibit B. Status of Section 350 Criteria Subject to OIG Review and
Prior Report Recommendations
                                                                                                  23


Capacity To Conduct Meaningful Inspections at the Southern Border
(Criteria F): According to FMCSA, there are 28 FMCSA inspection sites and
15 state inspection sites along the southern border that are either fully staffed or
contain equipped inspection facilities that can be staffed when needed.18 FMCSA
officials stated that some inspection sites might be improved or supported with
mobile operation vans to provide additional inspection capacity. Our current audit
found that FMCSA continues to have the capacity to conduct meaningful
inspections at the southern border, by providing sufficient inspection facilities and
equipment to meet Section 350(c)(1)(F) criteria, with the exception of Mexican
bus inspection issues. Further, our prior audit recommendation to ensure that
operable weigh-in-motion scales were available at the 10 highest-volume
crossings has been met. The bus inspection issue and actions taken in response to
our January 2005 report regarding bus inspections and weigh-in-motion scales are
discussed in the findings section of this report.

Sufficiently Comprehensive Data for Monitoring Motor Carriers and Drivers
(Criteria G): Section 350(c)(1)(G) states that a database containing “sufficiently
comprehensive data” must be accessible for monitoring all Mexican motor carriers
and their drivers that apply for authority to operate beyond the municipal and
commercial zones on the United States-Mexico border. In this audit, we
concentrated on re-examining the data inconsistencies noted with Mexican motor
carrier driver records and the actions FMCSA has taken in regards to its 52nd
State System. This system contains records of traffic violations Mexican
commercial drivers commit in the United States.                 We also examined
inconsistencies with Mexico’s Licencia Federal Information System, which
contains records showing Mexican motor carrier commercial drivers with valid,
disqualified, or expired licenses. Our audit found that the same systems
enforcement officials use to monitor both Mexican carriers and drivers, which we
identified in our 2005 audit, are still in place to meet the Section 350 criteria.
However, data from the 52nd State System covering Mexican driver records in the
United States were incomplete. This issue is discussed further in the findings
section of this report, as is the status of Mexico’s information system.

Effective Enforcement (Criteria H): Section 350 (c)(1)(H), requires that
measures be in place for ensuring “effective enforcement” of Mexican motor
carriers. Our 2005 audit reported that five states had yet to adopt FMCSA’s
August 2002 interim final rule on enforcing operating authority, which would
require states to place Mexican motor carrier vehicles out of service for violations
of specific Federal motor carrier regulations. 19 Our audit found that FMCSA’s

18
   Our 2005 report noted 27 FMCSA inspection sites and separately reported that at two crossings
   commercial volume was not sufficient to merit full-time inspection coverage or dedicated inspection
   facilities. However, according to FMCSA, inspectors were available “on-call” to provide coverage.
19
   The final rule was issued on August 28, 2006 (71 FR 50862).

Exhibit B. Status of Section 350 Criteria Subject to OIG Review and
Prior Report Recommendations
                                                                                                     24


actions addressed our prior recommendation to ensure that all states adopt and
comply with the rule. We confirmed that the five states without operating
authority have now adopted the rule or as with California, were using an
equivalent rule. Instead of putting a violator out of service, California can either
fine the violator $1,000 or order the violator to return the vehicle to the country of
origin. In addition to assessing a fine against violators, California may also
impound the vehicle and its cargo until the fine and impoundment charges are
paid. FMCSA has stated that it considers California’s requirement that the vehicle
be impounded to be compatible with its rule, but to ensure that all violators are
placed out of service, California is moving to adopt and include FMCSA’s criteria.
As a result, all states can now place vehicles out of service or take equivalent
action for operating authority violations. See the report findings for remaining
concerns we have with states obtaining information regarding the status of carrier
operating authority.

Status of Other January 2005 Report Issues Relating to Mexican
Motor Carrier Cross-Border Trucking
The remaining five areas identified in the January 2005 report are addressed
below. They include recommendations for two preconditions set forth elsewhere
in Section 350 of the FY 2002 Act, one recommendation for an area not
specifically included in Section 350 but related to Mexican motor carrier cross-
border safety issues, and two safety-related issues identified in the report but not
reflected in the report recommendations.

We followed up on the detailed actions FMCSA outlined in response to other
border operation safety issues identified in our January 2005 report not already
covered in our report findings. Those actions included (1) reaching an agreement
or understanding with the Government of Mexico to allow on-site inspections,
(2) reaching an agreement on background checks on Mexican commercial drivers
hauling hazardous materials, (3) improving the quality of available data on
Mexican motor carriers, (4) recording of insurance information, and (5) replacing
an inspection facility at Eagle Pass, Texas.

The Mexican Government will now allow on-site inspection of Mexican
carriers. Our previous report noted that the FY 2002 Act Section 350 (a)
prohibited FMCSA from using funds to review or process long-haul applications
of Mexican motor carriers until after they meet certain preconditions involving on-
site reviews. Section 350 requires that 50 percent of Mexican motor carriers
applying for long-haul authority be inspected on-site. 20 On February 22, 2007,
Secretary of Transportation announced that the Government of Mexico would
20
     In February 2007, FMCSA re-issued inspection guidance on pre-authority safety audits that included a
     requirement for its inspectors to notify Mexican government officials named in the guidance at least
     15 days in advance of an on-site inspection.

Exhibit B. Status of Section 350 Criteria Subject to OIG Review and
Prior Report Recommendations
                                                                               25


allow on-site inspections of Mexican motor carriers. We plan to assess on-site
reviews as they pertain to the announced project discussed in the findings section
of this report.

A non-DOT program performs background checks on Mexican commercial
drivers hauling hazardous materials. Section 350 (b) restricts any vehicle
owned or leased by a Mexican motor carrier from hauling hazardous materials
outside U.S. commercial zones in a placardable quantity. This restriction is in
place until the United States and Mexico reach an agreement ensuring that
Mexican drivers meet substantially the same qualifications as U.S. drivers hauling
hazardous materials. Our 2005 report recommended that FMCSA facilitate the
establishment of this agreement and not permit vehicles owned or leased by
Mexican motor carriers to haul hazardous materials outside the commercial zone
until such an agreement is in place.

Subsequent to our 2005 report, the August 2005 Safe, Accountable, Flexible,
Efficient, Transportation Equity Act: A Legacy for Users 21 (SAFETEA-LU)
required background checks of Mexican and Canadian commercial drivers hauling
hazardous materials that are equivalent to checks required to qualify U.S.
commercial vehicle drivers.         The Department of Homeland Security
Transportation Security Administration implemented this requirement by ruling
that the U.S. Customs and Border Protection Free and Secure Trade (FAST)
program, which includes background checks of Mexican motor carriers, meets the
background check requirements of SAFETEA-LU. According to the TSA,
Mexican and Canadian drivers who do not or cannot obtain a FAST card will be
prohibited from transporting hazardous materials in the United States. FAST went
into affect on August 10, 2006. Without information regarding the scope of the
processes the U.S. Customs and Border Protection used in performing background
checks, we could not assess whether FAST is an equivalent alternative to the
requirement of Section 350 (b). Because the TSA has taken the Federal lead in
carrying out hazardous material background checks, our 2005 recommendation
that FMCSA facilitate a background check agreement is closed. Further,
according to FMCSA, it does not have a role in enforcing background checks on
Mexican or Canadian motor carriers.

FMCSA issued guidance that should improve the quality of data on Mexican
motor carriers. The effective monitoring of Mexican motor carriers over the
long term will depend, in part, on the quality of the data obtained on their
operations. Our 2005 report recommended that FMCSA establish pre-authority
safety audit procedures to ensure Mexican motor carriers provide accurate
information on power units and vehicle drivers. FMCSA uses this type of data in
combination with other information, such as crash and inspection reports, to
21
     Pub. L. No. 109-59 (2005).

Exhibit B. Status of Section 350 Criteria Subject to OIG Review and
Prior Report Recommendations
                                                                                               26


identify for review those motor carriers that are a high risk. In February 2007,
FMCSA issued pre-authorization safety audit guidance for Mexican motor carriers
that requires safety auditors to collect information on carrier power units and
vehicle drivers.

Because long-haul authority has not yet been granted to Mexican motor carriers,
we are unable to confirm the implementation of these procedures. However, our
April 2006 audit of the 1999 Motor Carrier Safety Improvement Act22 showed that
the procedures FMCSA used during reviews of new entrant U.S. carriers, which
are similar to those instituted by FMCSA for Mexican motor carriers, had reduced
the instances of inaccurate and incomplete information, such as power unit data, in
the FMCSA database. Therefore, the pre-authorization safety audit guidance may
increase the reliability of Mexican motor carrier data once it is in use.

FMCSA plans to record insurance data of Mexican carriers in the United
States after it starts processing long-haul authority applications. Our 2005
report recommended that FMCSA require Mexican motor carriers operating
outside municipal and commercial zones to provide appropriate insurance
information for inclusion in FMCSA’s database. Adding insurance data to the
database provides a means for enforcement officials to verify insurance coverage
during an inspection. In response, FMCSA stated that it would address this
recommendation when it begins processing Mexican motor carrier applications for
long-haul authority. In the meantime, according to FMCSA, Mexican motor
carriers must carry certificates of insurance in their commercial vehicles. These
certificates are subject to review if the vehicle is stopped or inspected. We plan to
review this issue as it pertains to the announced demonstration project.

The Eagle Pass inspection facility is operational. Our 2005 report noted that
when the U.S. Customs and Border Protection planned the replacement of the
Eagle Pass inspection facility in Texas, it did not include space for FMCSA
inspections. FMCSA reported that the Eagle Pass inspection facilities are now
operational. To verify that the facility is operational, we reviewed FMCSA
staffing data. In Eagle Pass, as of August 2006, there were 3 FMCSA inspectors
on the U.S. Customs and Border Protection compound and 19 state inspectors at a
state location.




22
     OIG Report Number MH-2006-046, “Significant Improvements in Motor Carrier Safety Program Since
     1999 Act but Loopholes for Repeat Violators Need Closing,” April 21, 2006.

Exhibit B. Status of Section 350 Criteria Subject to OIG Review and
Prior Report Recommendations
                                                                                  27


EXHIBIT C. SECTION 350 REQUIREMENTS
With the signing of North American Free Trade Agreement in December 1992, the
United States of America and Mexico consented to cross-border trucking
throughout both countries by January 1, 2000. However, in December 1995, the
Secretary of Transportation indefinitely delayed implementation of NAFTA cross-
border provisions, citing safety reasons.

Section 350 of the Department of Transportation and Related Agencies
Appropriations Act for Fiscal Year 2002 and subsequent appropriation legislation
prohibit FMCSA from using Federal funds to review or process Mexico-domiciled
motor carrier applications to operate beyond the U.S. commercial zones until
certain preconditions and safety requirements are met. Section 350 provisions,
including the requirement for an annual review by our office, are summarized
below and provided in more detail on the following pages.

   •   Section 350 Preconditions for Allowing Reviewing or Processing of
       Mexican Long-Haul Applications: FMCSA must meet a number of
       preconditions contained in Section 350 (a) before it can review or process
       Mexican motor carrier applications to operate as a long-haul carrier beyond
       the municipal and commercial zones at the southern border. This includes
       requiring on-site safety examinations of motor carriers in Mexico, in some
       instances.

   •   Section 350 Precondition for Allowing Vehicles To Haul Hazardous
       Materials: Section 350 (b) restricts vehicles owned or leased by Mexican
       motor carriers to transport hazardous materials beyond commercial zones
       until an agreement is reached between the United States and Mexico. This
       agreement must hold hazardous material drivers from both countries to
       substantially the same requirements.

   •   Section 350 OIG Review and Secretary Certification of Border
       Operations: Section 350 (c) prohibits Mexican motor carriers from
       operating beyond the commercial zone under conditional or permanent
       authority granted by FMCSA until two events occur. First, the OIG must
       conduct a review within the first 180 days of the law’s enactment to verify
       whether or not eight criteria are met. These criteria relate to the hiring and
       training of inspectors, establishment of inspection facilities, and
       development of safety processes and procedures for Mexican long-haul
       motor carriers. Second, the Secretary of Transportation must certify, in a
       manner addressing the OIG’s findings, that opening of the border does not
       pose an unacceptable safety risk to the American public.




Exhibit C. Section 350 Requirements
                                                                                    28


In November 2002, the Secretary of Transportation certified that opening the
border does not pose an unacceptable risk to the American public. Although
Section 350 (c) does not require the Secretary of Transportation to re-certify to the
safety of opening the border after the initial certification, it does direct the OIG to
perform annual reviews using the eight Section 350 (c) criteria. The OIG issued
reports in June 2002, May 2003, and January 2005 that addressed the eight criteria
and other border operations issues covered under the FY 2002 Act. See exhibit D
for a summary of these reports. The full text of Section 350 follows:

The Department of Transportation and Related Agencies
Appropriations Act for Fiscal Year 2002, Section 350, Safety of Cross-
Border Trucking Between United States and Mexico

Section 350 (a). No funds limited or appropriated in this Act may be obligated or
expended for the review or processing of an application by a Mexican motor
carrier for authority to operate beyond United States municipalities and
commercial zones on the United States-Mexico border until the Federal Motor
Carrier Safety Administration—

       (1)(A) requires a safety examination of such motor carrier to be performed
       before the carrier is granted conditional operating authority to operate
       beyond United States municipalities and commercial zones on the United
       States-Mexico border;

       (B) requires the safety examination to include—

              (i) verification of available performance data and safety management
              programs;

              (ii) verification of a drug and alcohol testing program consistent with
              part 40 of title 49, Code of Federal Regulations;

              (iii) verification of that motor carrier's system of compliance with
              hours-of-service rules, including hours-of-service records;

              (iv) verification of proof of insurance;

              (v) a review of available data concerning that motor carrier's safety
              history, and other information necessary to determine the carrier's
              preparedness to comply with Federal Motor Carrier Safety rules and
              regulations and Hazardous Materials rules and regulations;




Exhibit C. Section 350 Requirements
                                                                                 29


            (vi) an inspection of that Mexican motor carrier's commercial
            vehicles to be used under such operating authority, if any such
            commercial vehicles have not received a decal from the inspection
            required in subsection (a)(5);

            (vii) an evaluation of that motor carrier's safety inspection,
            maintenance, and repair facilities or management systems, including
            verification of records of periodic vehicle inspections;

            (viii) verification of drivers' qualifications, including a confirmation
            of the validity of the Licencia de Federal de Conductor of each
            driver of that motor carrier who will be operating under such
            authority; and

            (ix) an interview with officials of that motor carrier to review safety
            management controls and evaluate any written safety oversight
            policies and practices.

     (C) requires that—

            (i) Mexican motor carriers with three or fewer commercial vehicles
            need not undergo on-site safety examination; however 50 percent of
            all safety examinations of all Mexican motor carriers shall be
            conducted on-site; and

            (ii) such on-site inspections shall cover at least 50 percent of
            estimated truck traffic in any year.

     (2) requires a full safety compliance review of the carrier consistent with
     the safety fitness evaluation procedures set forth in part 385 of title 49,
     Code of Federal Regulations, and gives the motor carrier a satisfactory
     rating, before the carrier is granted permanent operating authority to operate
     beyond United States municipalities and commercial zones on the United
     States-Mexico border, and requires that any such safety compliance review
     take place within 18 months of that motor carrier being granted conditional
     operating authority, provided that—

            (A) Mexican motor carriers with three or fewer commercial vehicles
            need not undergo on-site compliance review; however 50 percent of
            all compliance reviews of all Mexican motor carriers shall be
            conducted on-site; and




Exhibit C. Section 350 Requirements
                                                                               30


           (B) any Mexican motor carrier with 4 or more commercial vehicles
           that did not undergo an on-site safety exam under (a)(1)(C), shall
           undergo an on-site safety compliance review under this section.

     (3) requires Federal and State inspectors to verify electronically the status
     and validity of the license of each driver of a Mexican motor carrier
     commercial vehicle crossing the border;

           (A) for every such vehicle carrying a placardable quantity of
           hazardous materials;

           (B) whenever the inspection required in subsection (a)(5) is
           performed; and

           (C) randomly for other Mexican motor carrier commercial vehicles,
           but in no case less than 50 percent of all other such commercial
           vehicles.

     (4) gives a distinctive Department of Transportation number to each
     Mexican motor carrier operating beyond the commercial zone to assist
     inspectors in enforcing motor carrier safety regulations including hours-of-
     service rules under part 395 of title 49, Code of Federal Regulations;

     (5) requires, with the exception of Mexican motor carriers that have been
     granted permanent operating authority for three consecutive years—

           (A) inspections of all commercial vehicles of Mexican motor carriers
           authorized, or seeking authority to operate beyond United States
           municipalities and commercial zones on the United States-Mexico
           border that do not display a valid Commercial Vehicle Safety
           Alliance inspection decal, by certified inspectors in accordance with
           the requirements for a Level I Inspection under the criteria of the
           North American Standard Inspection (as defined in section 350.105
           of title 49, Code of Federal Regulations), including examination of
           the driver, vehicle exterior and vehicle under-carriage;

           (B) a Commercial Vehicle Safety Alliance decal to be affixed to
           each such commercial vehicle upon completion of the inspection
           required by clause (A) or a re-inspection if the vehicle has met the
           criteria for the Level I inspection; and

           (C) that any such decal, when affixed, expire at the end of a period
           of not more than 90 days, but nothing in this paragraph shall be


Exhibit C. Section 350 Requirements
                                                                              31


           construed to preclude the Administration from requiring reinspection
           of a vehicle bearing a valid inspection decal or from requiring that
           such a decal be removed when a certified Federal or State inspector
           determines that such a vehicle has a safety violation subsequent to
           the inspection for which the decal was granted.

     (6) requires State inspectors who detect violations of Federal motor carrier
     safety laws or regulations to enforce them or notify Federal authorities of
     such violations;

     (7)(A) equips all United States-Mexico commercial border crossings with
     scales suitable for enforcement action; equips 5 of the 10 such crossings
     that have the highest volume of commercial vehicle traffic with weigh-in-
     motion (WIM) systems; ensures that the remaining 5 such border crossings
     are equipped within 12 months; requires inspectors to verify the weight of
     each Mexican motor carrier commercial vehicle entering the United States
     at said WIM equipped high volume border crossings; and (B) initiates a
     study to determine which other crossings should also be equipped with
     weigh-in-motion systems;

     (8) the Federal Motor Carrier Safety Administration has implemented a
     policy to ensure that no Mexican motor carrier will be granted authority to
     operate beyond United States municipalities and commercial zones on the
     United States-Mexico border unless that carrier provides proof of valid
     insurance with an insurance company licensed in the United States;

     (9) requires commercial vehicles operated by a Mexican motor carrier to
     enter the United States only at commercial border crossings where and
     when a certified motor carrier safety inspector is on duty and where
     adequate capacity exists to conduct a sufficient number of meaningful
     vehicle safety inspections and to accommodate vehicles placed out of
     service as a result of said inspections.

     (10) publishes—

           (A) interim final regulations under section 210(b) of the Motor
           Carrier Safety Improvement Act of 1999 (49 U.S.C. 31144 note) that
           establish minimum requirements for motor carriers, including
           foreign motor carriers, to ensure they are knowledgeable about
           Federal safety standards, that may include the administration of a
           proficiency examination;




Exhibit C. Section 350 Requirements
                                                                                32


             (B) interim final regulations under section 31148 of title 49, United
             States Code, that implement measures to improve training and
             provide for the certification of motor carrier safety auditors;

             (C) a policy under sections 218(a) and (b) of that Act (49 U.S.C.
             31133 note) establishing standards for the determination of the
             appropriate number of Federal and State motor carrier inspectors for
             the United States-Mexico border;

             (D) a policy under section 219(d) of that Act (49 U.S.C. 14901 note)
             that prohibits foreign motor carriers from leasing vehicles to another
             carrier to transport products to the United States while the leaser is
             subject to a suspension, restriction, or limitation on its right to
             operate in the United States; and

             (E) a policy under section 219(a) of that Act (49 U.S.C. 14901 note)
             that prohibits foreign motor carriers from operating in the United
             States that is found to have operated illegally in the United States.

Section 350 (b). No vehicles owned or leased by a Mexican motor carrier and
carrying hazardous materials in a placardable quantity may be permitted to operate
beyond a United States municipality or commercial zone until the United States
has completed an agreement with the Government of Mexico which ensures that
drivers of such vehicles carrying such placardable quantities of hazardous
materials meet substantially the same requirements as United States drivers
carrying such materials.

Section 350 (c). No vehicles owned or leased by a Mexican motor carrier may be
permitted to operate beyond United States municipalities and commercial zones
under conditional or permanent operating authority granted by the Federal Motor
Carrier Safety Administration until—

      (1) the Department of Transportation Inspector General conducts a
      comprehensive review of border operations within 180 days of enactment
      to verify that—

             (A) all new inspector positions funded under this Act have been
             filled and the inspectors have been fully trained;

             (B) each inspector conducting on-site safety compliance reviews in
             Mexico consistent with the safety fitness evaluation procedures set
             forth in part 385 of title 49, Code of Federal Regulations, is fully
             trained as a safety specialist;


Exhibit C. Section 350 Requirements
                                                                             33



           (C) the requirement of subparagraph (a)(2) has not been met by
           transferring experienced inspectors from other parts of the United
           States to the United States-Mexico border, undermining the level of
           inspection coverage and safety elsewhere in the United States;

           (D) the Federal Motor Carrier Safety Administration has
           implemented a policy to ensure compliance with hours-of-service
           rules under part 395 of title 49, Code of Federal Regulations, by
           Mexican motor carriers seeking authority to operate beyond United
           States municipalities and commercial zones on the United States-
           Mexico border;

           (E) the information infrastructure of the Mexican government is
           sufficiently accurate, accessible, and integrated with that of United
           States enforcement authorities to allow United States authorities to
           verify the status and validity of licenses, vehicle registrations,
           operating authority and insurance of Mexican motor carriers while
           operating in the United States, and that adequate telecommunications
           links exist at all United States-Mexico border crossings used by
           Mexican motor carrier commercial vehicles, and in all mobile
           enforcement units operating adjacent to the border, to ensure that
           licenses, vehicle registrations, operating authority and insurance
           information can be easily and quickly verified at border crossings or
           by mobile enforcement units;

           (F) there is adequate capacity at each United States-Mexico border
           crossing used by Mexican motor carrier commercial vehicles to
           conduct a sufficient number of meaningful vehicle safety inspections
           and to accommodate vehicles placed out of service as a result of said
           inspections;

           (G) there is an accessible database containing sufficiently
           comprehensive data to allow safety monitoring of all Mexican motor
           carriers that apply for authority to operate commercial vehicles
           beyond United States municipalities and commercial zones on the
           United States-Mexico border and the drivers of those vehicles; and

           (H) measures are in place to enable United States law enforcement
           authorities to ensure the effective enforcement and monitoring of
           license revocation and licensing procedures of Mexican motor
           carriers.



Exhibit C. Section 350 Requirements
                                                                                  34


       (2) The Secretary of Transportation certifies in writing in a manner
       addressing the Inspector General's findings in paragraphs (c)(1)(A) through
       (c)(1)(H) of this section that the opening of the border does not pose an
       unacceptable safety risk to the American public.

Section 350 (d). The Department of Transportation Inspector General shall
conduct another review using the criteria in (c)(1)(A) through (c)(1)(H) consistent
with paragraph (c) of this section, 180 days after the first review is completed, and
at least annually thereafter.

Section 350 (e). For purposes of this section, the term `Mexican motor carrier'
shall be defined as a Mexico-domiciled motor carrier operating beyond United
States municipalities and commercial zones on the United States-Mexico border.

Section 350 (f). In addition to amounts otherwise made available in this Act, to be
derived from the Highway Trust Fund, there is hereby appropriated to the Federal
Motor Carrier Safety Administration, $25,866,000 for the salary, expense, and
capital costs associated with the requirements of this section.




Exhibit C. Section 350 Requirements
                                                                                35


EXHIBIT D. PRIOR AUDIT COVERAGE

OIG Report Number MH-2005-032, “Follow-up Audit of the
Implementation of the North American Free Trade Agreement’s
Cross-Border Trucking Provisions,” January 3, 2005

We reported that FMCSA had sufficient staff, facilities, equipment, and
procedures in place to substantially meet the eight Section 350 safety criteria
subject to OIG review in the Department of Transportation and Related Agencies
Appropriations Act for Fiscal Year 2002 (the FY 2002 Act). However, until an
agreement or other understanding related to on-site safety reviews was reached
with Mexico, FMCSA could not, in our view, grant long-haul operating authority
to any Mexican motor carrier. Additionally, given new background requirements
for U.S. drivers applying for hazardous materials endorsements, an agreement
would need to be in place with Mexico to cover similar background requirements
for vehicles owned or leased by Mexican motor carriers hauling hazardous
materials. While negotiations were being carried out with Mexico on these two
issues, which were preconditions to opening the border, FMCSA should close
remaining gaps in reaching full compliance with Section 350 requirements related
to bus coverage, enforcement authority, weigh-in-motion scales, and the
comprehensiveness of the data system used to monitor Mexican driver records in
the United States.

OIG Report Number MH-2003-041, “Follow-up Audit on the
Implementation of Commercial Vehicle Safety Requirements at the
U.S.-Mexico Border,” May 16, 2003

We reported that FMCSA had substantially completed the actions necessary to
meet Section 350 requirements, although the report noted several incomplete items
in need of action. Specifically, FMCSA needed to fill 3 enforcement personnel
vacancies to reach the target of 274, complete an agreement at one of 25 border
crossings to permit detaining of commercial vehicles, and ensure states adopt
FMCSA’s rule authorizing their enforcement personnel to take action when
encountering a vehicle operating without authority.

OIG Report Number MH-2002-094, “Implementation of Commercial
Vehicle Safety Requirements at the U.S.-Mexico Border,”
June 25, 2002

We reported that FMCSA made substantial progress toward meeting the FY 2002
Act requirements to hire and train inspectors, establish inspection facilities, and
develop safety processes and procedures for Mexican long-haul carriers. FMCSA
proposed to complete within 60 days those actions that were in process and


Exhibit D. Prior Audit Coverage
                                                                              36


planned to meet the Act’s requirements, except the hiring and training of safety
investigators and training supervisors.

OIG Report Number MH-2001-096, “Motor Carrier Safety at the U.S.-
Mexico Border,” September 21, 2001

Our audit recommended that FMCSA strengthen safety controls at the border in
the areas of staffing, safety reviews and inspections, enforcement, facilities,
rulemakings, and outreach.

OIG Report Number MH-2001-059, “Status of Implementing the North
American Free Trade Agreement’s Cross-Border Trucking
Provisions,” May 8, 2001

Our audit found that: (1) the percentage of Mexican trucks removed from service
because of serious safety violations declined from 44 percent in FY 1997 to
36 percent in FY 2000; (2) FMCSA increased the authorized number of inspectors
at the southern border from 13 in FY 1998 to 60 in FY 2001 and requested
80 additional enforcement personnel in its FY 2002 budget request; and (3) there
had been few needed improvements to inspection facilities used by Federal and
state commercial vehicle inspectors at border crossings.

OIG Report Number TR-2000-013, “Mexico-Domiciled Motor Carriers,”
November 4, 1999

We found that Mexico-domiciled motor carriers were operating improperly in the
United States and violating U.S. statutes either by not obtaining operating
authority or by operating beyond the scope of their authority.

OIG Report Number TR-1999-034, “Motor Carrier Safety Program for
Commercial Trucks at U.S. Borders,” December 28, 1998

We reported that the actions in preparation for opening the U.S.-Mexico border to
Mexican long-haul trucks did not provide reasonable assurance in the near term
that trucks entering the United States would comply with U.S. safety regulations.
With the exception of California, neither the Federal Highway Administration nor
the states’ plans provided for an adequate presence of inspectors at border
crossings for trucks currently operating in the commercial zones.




Exhibit D. Prior Audit Coverage
                                                        37


EXHIBIT E. MAJOR CONTRIBUTORS TO THIS REPORT

THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                                  Title

  Joe Comé                           Program Director

  David Pouliott                     Program Manager

  Gerard Sheeran                     Senior Auditor

  Maurice Toval                      Senior Auditor

  Regan Maund                        Analyst

  Calvin Moore                       Analyst




Exhibit E. Major Contributors to This Report
                                                                          38


EXHIBIT F. LIST OF ABBREVIATIONS
The following is a guide to the abbreviations used in this report.

 • CVSA – Commercial Vehicle Safety Alliance

 • DOT – Department of Transportation

 • FAST – Free and Secure Trade (U.S. Customs and Border Protection program)

 • FMCSA - Federal Motor Carrier Safety Administration

 • FY 2002 Act - The Department of Transportation and Related Agencies
   Appropriations Act for Fiscal Year 2002

 • LIFIS - Licencia Federal Information System

 • MCMIS - Motor Carrier Management Information System

 • OIG – Office of Inspector General

 • OOS –Out-of-Service

 • NAFTA – North American Free Trade Agreement

 • SAFETEA-LU - Safe, Accountable, Flexible, Efficient, Transportation Equity
   Act: A Legacy for Users

 • TSA – Transportation Security Administration




Exhibit F. List of Abbreviations
                                                                                                           39


           APPENDIX. MANAGEMENT COMMENTS




           U.S. Department
                                                          Memorandum
           Of Transportation
           Federal Motor Carrier
           Safety Administration


Subject:   INFORMATION: Response to the Office of Inspector General’s (OIG)              Date:
           Draft Report “Follow-up Audit of Status of Implementation of the North
           American Free Trade Agreement’s Cross-Border Trucking Provisions”
           Project No. 06M3008M000
                                                                                         Reply to:   MC-E
From:      John H. Hill                                                                  Attn of:    William A. Quade
           Administrator

To:        Rebecca Anne Batts
           Deputy Assistant Inspector General
             for Surface and Maritime Programs


           This memorandum responds to your June 29, 2007, draft report titled, “Follow-up Audit of
           Status of Implementation of the North American Free Trade Agreement’s Cross-Border
           Trucking Provisions.” I have reviewed the report and provided responses to the
           recommendations below. I consider many of the findings and recommendations to be
           constructive and already have actions underway to address them. I look forward to working
           with the OIG in strengthening the cross-border trucking provisions.

           RESPONSES TO SPECIFIC RECOMMENDATIONS

           RECOMMENDATION 1a. Improve the comprehensiveness and consistency of conviction
           data on Mexican commercial drivers in the 52nd State System as required by Section 350
           criteria by ensuring that the corrective action plans on data reporting problems provided by
           Arizona, California, New Mexico, and Texas are completed as scheduled.

           Response: CONCUR. Texas and New Mexico have successfully completed their 52nd State
           System corrective action plans. California is on schedule to complete their plan by August
           30, 2007. Arizona has developed an electronic process for uploading data to the 52nd State
           system and will have their corrective action plan completed by August 30, 2007.

           RECOMMENDATION 1b. Improve the comprehensiveness and consistency of conviction
           data on Mexican commercial drivers in the 52nd State System as required by Section 350
           criteria by developing a process to periodically, at least quarterly, identify and notify States
           of inconsistencies in 52nd State System data and ensure States take immediate steps to
           correct the inconsistencies.


           Appendix. Management Comments
                                                                                            40


Response: CONCUR. The Federal Motor Carrier Safety Administration (FMCSA) will
continue to work with the contractor that operates the 52nd State System to develop and
obtain monthly monitoring reports. The reports will be sent to all FMCSA Division
Administrators (DAs) detailing any inconsistencies in data and a follow-up mechanism and
guidance will be issued requiring DAs to track correction of inconsistencies in the 52nd State
System. This will be completed by August 31, 2007.

RECOMMENDATION 2a. Ensure that adequate space is available to conduct bus
inspections as required by Section 350 criteria, by working on a site-specific basis with the
U.S. Customs and Border Protection Service to modify the Southern Border Commercial Bus
Inspection Plan to provide adequate inspector coverage at the Lincoln-Juarez crossing in
Laredo, Texas, during holidays or other periods of peak bus traffic.

Response: CONCUR. The Texas Division Office will review and modify, as necessary,
their Bus Inspection plan to ensure adequate coverage at the Laredo-Juarez crossing during
periods of peak bus traffic. This will be done in conjunction with the Texas Department of
Public Safety and the U.S. Customs and Border Protection Service. The FMCSA anticipates
completing this by December 31, 2007.

RECOMMENDATION 2b. Ensure that adequate space is available to conduct bus
inspections as required by Section 350 criteria, by working on a site-specific basis with the
U.S. Customs and Border Protection Service to modify the Southern Border Commercial Bus
Inspection Plan to periodically determine the effectiveness of the bus inspection plan by
surveying field personnel or through other methods.

Response: CONCUR. The FMCSA has provided funding to the Texas Transportation
Institute, Texas A&M University, to conduct a review of bus activities and operations at the
Southern border. Included in this review will be an analysis of staffing and facilities for bus
crossings to ensure continued compliance with the Section 350 bus requirements. After
completion of the review, FMCSA will initiate appropriate action to ensure continued
compliance with Section 350 requirements relating to bus inspections. The review is
expected to be completed by April 1, 2008.

RECOMMENDATION 3a. Address our findings on issues that are not related to Section
350 by implementing a policy on the use of vehicle model year to indicate compliance with
vehicle safety standards and recording of vehicle identification numbers as part of a safety
inspection.

Response: CONCUR. The FMCSA is revising the ASPEN software so an automatic
reminder appears during inspections and prompts inspectors to enter the vehicle identification
number (VIN) for all long-haul Mexico-domiciled motor carriers. The Agency will also
issue a policy memorandum requiring inspectors to complete the VIN number field for all
long-haul Mexico-domiciled motor carriers. The software includes a validation process that
provides a warning to the inspector if the VIN is inaccurate, invalid or if the VIN indicates
the vehicle was not manufactured in accordance with required safety standards. The revised
software is currently being used by State and Federal inspectors. The FMCSA will reissue its
enforcement policy for foreign-based motor carriers to include the noted change to the
ASPEN software. This will be completed by October 1, 2007.



Appendix. Management Comments
                                                                                           41


RECOMMENDATION 3b. Address our findings on issues that are not related to Section
350 by establishing an action plan, in coordination with other Department of Transportation
offices, to address concerns regarding drug and alcohol testing of all Mexican commercial
drivers.

Response: CONCUR. The FMCSA is working closely with the Office of Drug and
Alcohol Policy and Compliance (ODAPC), Office of the Secretary, to conduct audits of
various drug collection facilities operated by the Government of Mexico. These audits will
be completed by September 1, 2007. Additionally, ODAPC has worked closely with the
Government of Mexico to ensure the policies, procedures and forms used in their
governmental controlled substance and alcohol testing program are consistent with, and meet
the requirements of, 49 CFR Part 40. All Mexico-domiciled motor carriers are required to
have alcohol controlled substance testing programs that meet the requirements of 49 CFR
Part 40. If the Mexican drug and alcohol collection sites and laboratory do not meet United
States specification, the motor carrier will be required to use facilities in the United States
that meet the requirements. Use of collection site and laboratory facilities that meet all
United States requirements is verified during the pre-authorization safety audit and monitored
during compliance reviews of the Mexico-domiciled motor carriers. Violations discovered
during compliance reviews may result in enforcement action against the motor carriers.

The FMCSA will work with ODAPC to establish an action plan to periodically audit the
Mexican collection sites and laboratory to determine if they meet United States requirements.
This will be completed by December 31, 2007.

If you need additional information or clarification, please do not hesitate to contact me, or
William A. Quade, Acting Associate Administrator for Enforcement and Program Delivery at
202-366-2172.




Appendix. Management Comments
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added here
accommodate assistive technology.
    Follow-Up Audit on the Federal Motor Carrier Safety Administration’s
 Implementation of the North American Free Trade Agreement’s Cross-Border
                             Trucking Provisions
                      Section 508 Compliant Presentation

Figure 1. Number of FMCSA Border Inspectors

   • The number of FMCSA border inspectors in FY 1998 was 13.

   • The number of FMCSA border inspectors in June 2006 was 254.
      Source: OIG

Figure 2. Percentage of Mexican Trucks Taken Out of Service

   • Percent of Mexican trucks taken out of service in FY 1997 was 44 percent.

   • Percent of Mexican trucks taken out of service in FY 2006 was 21 percent.

      Source: OIG

Table 1. FY 2004-FY 2006 Out-of-Service Rates of United States, Mexico, and
Central American Motor Carriers

Table 1, Item 1: Vehicle Out-of-Service Rates. This is the percentage of vehicles
inspected and placed out of service due to safety or regulation violation.

   • For the United States: In 2004, 22.6 percent were placed out of service. In
     2005, 22.4 percent were placed out of service. In 2006, 22.3 percent were
     placed out of service.

   • For Mexico: In 2004, 23.1 percent were placed out of service. In 2005, 20.4
     percent were placed out of service. In 2006, 20.9 percent were placed out of
     service.

   • For Central America: In 2004, 39.5 percent were placed out of service. In
     2005, 28.3 percent were placed out of service. In 2006, 42.7 percent were
     placed out of service.

Table 1, Item 2: Driver Out-of-Service Rates. This is the percentage of drivers
inspected and placed out of service due to a license violation.

   • For the United States: In 2004, 6.8 percent were placed out of service. In
     2005, 6.9 percent were placed out of service. In 2006, 7.3 percent were placed
     out of service.
   • For Mexico: In 2004, 1.9 percent were placed out of service. In 2005, 1.1
     percent were placed out of service. In 2006, 1.2 percent were placed out of
     service.

   • For Central America: In 2004, 10.6 percent were placed out of service. In
     2005, 4.8 percent were placed out of service. In 2006, 29.3 percent were
     placed out of service.
      Source: OIG analysis of data from FMCSA’s Motor Carrier Management
      Information System.

      Our analysis noted 491 U.S. inspections in FY 2006 pertaining to Central American
      motor carriers. According to FMCSA, Central American carriers must comply with
      FMCSA safety requirements in the United States and New Entrant Safety Program
      rules specific to non-North American commercial motor carriers operating in the
      United States.

Table 2. 52nd State System Mexican Commercial Driver Convictions Since
System Inception and for Beginning of 2006

   • 52nd State System Mexican Driver Convictions Since System Inception
     March 2002 Through December 2005 (46 months), Southern Border
     States: In Arizona, 20 convictions. In California, 28 convictions. In New
     Mexico, 291 convictions. In Texas, 4,677 convictions.

   • 52nd State System Mexican Driver Convictions January 2006 to May
     2006, (5 months) Southern Border States: In Arizona, 27 convictions. In
     California, 6 convictions. In New Mexico, 0 convictions. In Texas, 2
     convictions.
      Source: OIG analysis of data from TML Information Services (52nd State System
      Contractor)

Figure 3. FMCSA Bus Inspection at Laredo, Texas, September 2006

Photograph shows two FMCSA inspectors inspecting a motor coach bus labeled
“NORESTE” and “4632” at FMCSA’s Laredo Bus Crossing inspection area. The bus
has its rear back and right rear side panels open exposing the bus engine
compartments. One FMCSA inspector is checking the right rear wheel area. The
other FMCSA inspector is recording inspection data.

Source: OIG
Table 4. Location of FMCSA Personnel at the United States-Mexico Border in
June 2006

   • Arizona FMCSA Staff Positions: 27 Inspectors; 6 Auditors; 3 Investigators; 6
     Supervisors; 2 Support Staff. Forty-four in total.

   • California FMCSA Staff Positions: 10 Inspectors; 14 Auditors; 12
     Investigators; 5 Supervisors; 3 Support Staff. Forty-four in total.

   • New Mexico FMCSA Staff Positions: 6 Inspectors; 0 Auditors; 0
     Investigators; 1 Supervisor; 0 Support Staff. Seven in total.

   • Texas FMCSA Staff Positions: 85 Inspectors; 29 Auditors; 32 Investigators;
     7 Supervisors; 6 Support Staff. One hundred fifty-nine in total.

   • Total FMCSA Personnel for all Border States: 128 Inspectors; 49 Auditors;
     47 Investigators; 19 Supervisors; 11 Support Staff. Two hundred fifty-four in
     total.
      Source: OIG analysis of June 2006 FMCSA Border Staff Roster.

Table 5. Number of U.S. Inspections of Motor Carrier Commercial Vehicles and
Drivers by Carrier Domicile, FY 2004 through FY 2006

Table 5, Item 1: Inspections for United States-Domiciled Motor Carriers

   • In FY 2006, 2,554,280 inspections were conducted in the United States,
     314,486 carriers were inspected, and the average number of inspections per
     carrier was 8.

   • In FY 2005, 2,338,692 inspections were conducted in the United States,
     290,236 carriers were inspected, and the average number of inspections per
     carrier was 8.

   • In FY 2004, 2,332,137 inspections were conducted in the United States,
     277,362 carriers were inspected, and the average number of inspections per
     carrier was 8.

Table 5, Item 2: Inspections for Mexico-Domiciled Motor Carriers

   • In FY 2006, 211,106 inspections were conducted in the United States, 4,617
     carriers were inspected, and the average number of inspections per carrier was
     46.
   • In FY 2005, 193,540 inspections were conducted in the United States, 4,597
     carriers were inspected, and the average number of inspections per carrier was
     42.

   • In FY 2004, 164,342 inspections were conducted in the United States, 5,007
     carriers were inspected, and the average number of inspections per carrier was
     33.

Table 5, Item 3: Inspections for Central American-Domiciled Motor Carriers

   • In FY 2006, 491 inspections were conducted in the United States, 54 carriers
     were inspected, and the average number of inspections per carrier was 9.

   • In FY 2005, 376 inspections were conducted in the United States, 38 carriers
     were inspected, and the average number of inspections per carrier was 10.

   • In FY 2004, 161 inspections were conducted in the United States, 34 carriers
     were inspected, and the average number of inspections per carrier was 5.
      Source: OIG analysis of FMCSA’s Motor Carrier Management Information System
      data.
